     73186                  Federal Register / Vol. 70, No. 236 / Friday, December 9, 2005 / Proposed Rules

     procedure by submitting written                         Environmental Health Risks and Safety                 address: Office of Inspector General,
     comments in accordance with the                         Risks’’ (62 FR 19885, April 23, 1997),                Department of Health and Human
     instructions outlined earlier in this                   because it is not economically                        Services, Attention: OIG–101–N, Room
     notice.                                                 significant.                                          5246, Cohen Building, 330
                                                               Section 12(d) of the National                       Independence Avenue, SW.,
     V. Statutory and Executive Order
                                                             Technology Transfer Advancement Act                   Washington, DC 20201.
     Reviews                                                                                                         We do not accept comments by
                                                             (NTTAA) of 1995, Public Law 104–113,
        Under Executive Order 12866 (58 FR                   section 12(d) (15 U.S.C. 272 note)                    facsimile (FAX) transmission. In
     51735, October 4, 1993), this proposed                  directs EPA to use voluntary consensus                commenting, please refer to file code
     action is not a ‘‘significant regulatory                standards (VCS) in its regulatory                     OIG–101–N. Comments received timely
     action’’ and therefore is not subject to                activities unless to do so would be                   will be available for public inspection as
     review by the Office of Management and                  inconsistent with applicable law or                   they are received, generally beginning
     Budget. For this reason, this action is                 otherwise impracticable. VCS are                      approximately 3 weeks after publication
     also not subject to Executive Order                     technical standards (e.g., materials                  of a document, in Room 5541 of the
     13211, ‘‘Actions Concerning Regulations                 specifications, test methods, sampling                Office of Inspector General at 330
     That Significantly Affect Energy Supply,                procedures, and business practices) that              Independence Avenue, SW.,
     Distribution, or Use’’ (66 FR 28355, May                are developed or adopted by VCS                       Washington, DC, on Monday through
     22, 2001). This proposed action merely                  bodies. This action does not involve                  Friday of each week from 8 a.m. to 4:30
     proposes to approve a redesignation to                  technical standards. Therefore, EPA did               p.m.
     attainment and imposes no additional                    not consider the use of any VCS. This                 FOR FURTHER INFORMATION CONTACT: Joel
     requirements beyond those imposed by                    proposed rule does not impose an                      Schaer, (202) 619–0089, OIG
     state law. Redesignation of an area to                  information collection burden under the               Regulations Officer.
     attainment under section 107 of the                     provisions of the Paperwork Reduction                 SUPPLEMENTARY INFORMATION:
     Clean Air Act is an action that affects                 Act of 1995 (44 U.S.C. 3501 et seq.).
     the attainment status of a geographical                                                                       I. Background
     area and does not impose any new                        List of Subjects in 40 CFR Part 81
                                                                                                                   A. OIG Safe Harbor Provisions
     regulatory requirements on sources.                       Air pollution control, National parks,
     Accordingly, the Administrator certifies                                                                        Section 1128B(b) of the Social
                                                             Wilderness areas.
     that this proposed rule will not have a                                                                       Security Act (the Act) (42 U.S.C. 1320a–
                                                               Authority: 42 U.S.C. 7401 et seq.                   7b(b)) provides criminal penalties for
     significant economic impact on a
     substantial number of small entities                      Dated: November 28, 2005.                           individuals or entities that knowingly
     under the Regulatory Flexibility Act (5                 Robert E. Roberts,                                    and willfully offer, pay, solicit or
     U.S.C. 601 et seq.). Because this rule                  Regional Administrator, Region 8.                     receive remuneration in order to induce
     proposes to approve a redesignation to                  [FR Doc. 05–23808 Filed 12–8–05; 8:45 am]             or reward business reimbursable under
     attainment and does not impose any                                                                            the Federal health care programs. The
                                                             BILLING CODE 6560–50–P
     additional enforceable duty beyond that                                                                       offense is classified as a felony and is
     required by state law, it does not                                                                            punishable by fines of up to $25,000
     contain any unfunded mandate or                                                                               and imprisonment for up to 5 years. OIG
                                                             DEPARTMENT OF HEALTH AND                              may also impose civil money penalties,
     significantly or uniquely affect small                  HUMAN SERVICES
     governments, as described in the                                                                              in accordance with section 1128A(a)(7)
     Unfunded Mandates Reform Act of 1995                    Office of Inspector General                           of the Act (42 U.S.C. 1320a–7a(a)(7)), or
     (Pub. L. 104–4).                                                                                              exclusion from the Federal health care
        This proposed rule also does not have                42 CFR Part 1001                                      programs, in accordance with section
     tribal implications because it will not                                                                       1128(b)(7) of the Act (42 U.S.C. 1320a–
     have a substantial direct effect on one or              Solicitation of New Safe Harbors and                  7(b)(7)).
     more Indian tribes, on the relationship                 Special Fraud Alerts                                    Since the statute on its face is so
     between the Federal Government and                                                                            broad, concern has been expressed for
     Indian tribes, or on the distribution of                AGENCY:  Office of Inspector General                  many years that some relatively
     power and responsibilities between the                  (OIG), HHS.                                           innocuous commercial arrangements
     Federal Government and Indian tribes,                   ACTION: Notice of intent to develop                   may be subject to criminal prosecution
     as specified by Executive Order 13175                   regulations.                                          or administrative sanction. In response
     (65 FR 67249, November 9, 2000). This                                                                         to the above concern, the Medicare and
                                                             SUMMARY: In accordance with section
     action also does not have Federalism                                                                          Medicaid Patient and Program
                                                             205 of the Health Insurance Portability
     implications because it does not have                                                                         Protection Act of 1987, section 14 of
                                                             and Accountability Act (HIPAA) of
     substantial direct effects on the States,                                                                     Public Law 100–93, specifically
                                                             1996, this annual notice solicits
     on the relationship between the national                                                                      required the development and
                                                             proposals and recommendations for
     government and the States, or on the                                                                          promulgation of regulations, the so-
                                                             developing new and modifying existing
     distribution of power and                                                                                     called ‘‘safe harbor’’ provisions,
                                                             safe harbor provisions under the Federal
     responsibilities among the various                                                                            specifying various payment and
                                                             anti-kickback statute (section 1128B(b)
     levels of government, as specified in                                                                         business practices which, although
                                                             of the Social Security Act), as well as
     Executive Order 13132 (64 FR 43255,                                                                           potentially capable of inducing referrals
                                                             developing new OIG Special Fraud
     August 10, 1999). This action merely                                                                          of business reimbursable under the
                                                             Alerts.
     proposes to approve a redesignation to                                                                        Federal health care programs, would not
     attainment and does not alter the                       DATES: To assure consideration, public                be treated as criminal offenses under the
     relationship or the distribution of power               comments must be delivered to the                     anti-kickback statute and would not
     and responsibilities established in the                 address provided below by no later than               serve as a basis for administrative
     Clean Air Act. This proposed rule also                  5 p.m. on February 7, 2006.                           sanctions. OIG safe harbor provisions
     is not subject to Executive Order 13045                 ADDRESSES: Please mail or deliver your                have been developed ‘‘to limit the reach
     ‘‘Protection of Children from                           written comments to the following                     of the statute somewhat by permitting


VerDate Aug<31>2005   17:03 Dec 08, 2005   Jkt 208001   PO 00000   Frm 00020   Fmt 4702   Sfmt 4702   E:\FR\FM\09DEP1.SGM   09DEP1
                            Federal Register / Vol. 70, No. 236 / Friday, December 9, 2005 / Proposed Rules                                           73187

     certain non-abusive arrangements, while                 II. Solicitation of Additional New                    identified in a new Special Fraud Alert
     encouraging beneficial and innocuous                    Recommendations and Proposals                         may result in any of the consequences
     arrangements’’ (56 FR 35952, July 29,                      In accordance with the requirements                set forth above, as well as the volume
     1991). Health care providers and others                 of section 205 of Public Law 104–191,                 and frequency of the conduct that
     may voluntarily seek to comply with                     OIG last published a Federal Register                 would be identified in the Special Fraud
     these provisions so that they have the                  solicitation notice for developing new                Alert.
     assurance that their business practices                 safe harbors and Special Fraud Alerts on                A detailed explanation of
     will not be subject to any enforcement                  December 10, 2004 (69 FR 71766). As                   justifications for, or empirical data
     action under the anti-kickback statute or               required under section 205, a status                  supporting, a suggestion for a safe
     related administrative authorities.                     report of the public comments received                harbor or Special Fraud Alert would be
                                                             in response to that notice is set forth in            helpful and should, if possible, be
        To date, OIG has developed and
                                                             Appendix F to the OIG’s Semiannual                    included in any response to this
     codified in 42 CFR 1001.952 a total of
                                                             Report covering the period April 1,                   solicitation.
     22 final safe harbors that describe
     practices that are sheltered from                       2005, through September 30, 2005.1 OIG                  Dated: November 30, 2005.
     liability.                                              is not seeking additional public                      Daniel R. Levinson,
                                                             comment on the proposals listed in                    Inspector General.
     B. OIG Special Fraud Alerts                             Appendix F at this time. Rather, this                 [FR Doc. 05–23624 Filed 12–8–05; 8:45 am]
                                                             notice seeks additional
       OIG has also periodically issued                                                                            BILLING CODE 4150–04–P
                                                             recommendations regarding the
     Special Fraud Alerts to give continuing
                                                             development of proposed or modified
     guidance to health care providers with
                                                             safe harbor regulations and new Special
     respect to practices OIG finds                                                                                DEPARTMENT OF DEFENSE
                                                             Fraud Alerts beyond those summarized
     potentially fraudulent or abusive. The
                                                             in Appendix F to the OIG Semiannual
     Special Fraud Alerts encourage industry                                                                       48 CFR Parts 208, 252, and 253 and
                                                             Report referenced above.
     compliance by giving providers                                                                                Appendix B to Chapter 2
     guidance that can be applied to their                   A. Criteria for Modifying and
                                                             Establishing Safe Harbor Provisions                   [DFARS Case 2003–D072]
     own practices. OIG Special Fraud Alerts
     are intended for extensive distribution                   In accordance with section 205 of                   Defense Federal Acquisition
     directly to the health care provider                    HIPAA, we will consider a number of                   Regulation Supplement; Required
     community, as well as to those charged                  factors in reviewing proposals for new                Sources of Supply
     with administering the Federal health                   or modified safe harbor provisions, such
     care programs.                                          as the extent to which the proposals                  AGENCY:Department of Defense (DoD).
       In developing these Special Fraud                     would affect an increase or decrease in:                    Proposed rule with request for
                                                                                                                   ACTION:
     Alerts, OIG has relied on a number of                     • Access to health care services,                   comments.
     sources and has consulted directly with                   • The quality of services,
                                                               • Patient freedom of choice among                   SUMMARY: DoD is proposing to amend
     experts in the subject field, including
                                                             health care providers,                                the Defense Federal Acquisition
     those within OIG, other agencies of the
                                                               • Competition among health care                     Regulation Supplement (DFARS) to
     Department, other Federal and State
                                                             providers,                                            update text addressing acquisitions
     agencies, and those in the health care
     industry. To date, OIG has issued 12                      • The cost to Federal health care                   made through Government supply
                                                             programs,                                             sources. This proposed rule is a result
     individual Special Fraud Alerts.
                                                               • The potential overutilization of the              of a transformation initiative undertaken
     C. Section 205 of Public Law 104–191                    health care services, and                             by DoD to dramatically change the
                                                               • The ability of health care facilities             purpose and content of the DFARS.
        Section 205 of Public Law 104–191                    to provide services in medically                      DATES: Comments on the proposed rule
     requires the Department to develop and                  underserved areas or to medically                     should be submitted in writing to the
     publish an annual notice in the Federal                 underserved populations.                              address shown below on or before
     Register formally soliciting proposals                    In addition, we will also take into                 February 7, 2006, to be considered in
     for modifying existing safe harbors to                  consideration other factors, including,               the formation of the final rule.
     the anti-kickback statute and for                       for example, the existence (or                        ADDRESSES: You may submit comments,
     developing new safe harbors and                         nonexistence) of any potential financial              identified by DFARS Case 2003–D072,
     Special Fraud Alerts.                                   benefit to health care professionals or               using any of the following methods:
        In developing safe harbors for a                     providers that may take into account                     • Federal eRulemaking Portal: http://
     criminal statute, OIG is required to                    their decisions whether to (1) order a                www.regulations.gov. Follow the
     engage in a thorough review of the range                health care item or service or (2) arrange            instructions for submitting comments.
     of factual circumstances that may fall                  for a referral of health care items or                   • Defense Acquisition Regulations
     within the proposed safe harbor subject                 services to a particular practitioner or              Web Site: http://emissary.acq.osd.mil/
     area so as to uncover potential                         provider.                                             dar/dfars.nsf/pubcomm. Follow the
     opportunities for fraud and abuse. Only                 B. Criteria for Developing Special Fraud              instructions for submitting comments.
     then can OIG determine, in consultation                 Alerts                                                   • E-mail: dfars@osd.mil. Include
     with the Department of Justice, whether                                                                       DFARS Case 2003–D072 in the subject
                                                               In determining whether to issue
     it can effectively develop regulatory                                                                         line of the message.
                                                             additional Special Fraud Alerts, we will
     limitations and controls that will permit                                                                        • Fax: (703) 602–0350.
                                                             also consider whether, and to what
     beneficial and innocuous arrangements                                                                            • Mail: Defense Acquisition
                                                             extent, the practices that would be
     within a subject area while, at the same                                                                      Regulations Council, Attn: Ms. Robin
     time, protecting the Federal health care                  1 The OIG Semiannual Report can be accessed         Schulze, OUSD (AT&L) DPAP (DAR),
     programs and their beneficiaries from                   through the OIG Web site at http://oig.hhs.gov/       IMD 3C132, 3062 Defense Pentagon,
     abusive practices.                                      publications/semiannual.html.                         Washington, DC 20301–3062.


VerDate Aug<31>2005   17:03 Dec 08, 2005   Jkt 208001   PO 00000   Frm 00021   Fmt 4702   Sfmt 4702   E:\FR\FM\09DEP1.SGM   09DEP1
